  Report No. D-2007-031      December 12, 2006




The Effects of Hurricane Katrina on the Defense
  Information Systems Agency Continuity of
          Operations and Test Facility
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

C2G                   Command and Control Guard
COOP                  Continuity of Operations
DCTF                  Defense Information Systems Agency Continuity of Operations
                         and Test Facility
DISA                  Defense Information Systems Agency
DITSCAP               DoD Information Technology Security Certification and
                         Accreditation Process
DRP                   Disaster Recovery Plan
FEMA                  Federal Emergency Management Agency
FPC                   Federal Preparedness Circular
GAO                   Government Accountability Office
GCSS                  Global Combat Support System
IT                    Information Technology
IG                    Inspector General
JITC                  Joint Interoperability Test Command
NIPRNET               Non-Secure Internet Protocol Router Network
OMB                   Office of Management and Budget
PMO                   Program Management Office
PM                    Project Manager
SIPRNET               Secret Internet Protocol Router Network
SSAA                  System Security Authorization Agreement
SWP                   Severe Weather Plan
               Department of Defense Office of Inspector General
Report No. D-2007-031                                               December 12, 2006
  (Project No. D2005-D000AS-0310.000)

      The Effects of Hurricane Katrina on the Defense Information
       Systems Agency Continuity of Operations and Test Facility

                                Executive Summary

Who Should Read This Report and Why? Military, civilians, and contractor personnel
responsible for the implementation and oversight of DoD continuity of operations should
read this report because it emphasizes the importance of continuity of operations
planning for critical systems that may be disrupted during disasters.

Background. This audit report is the second in a planned series of audits on the effects
of Hurricane Katrina on DoD information technology resources. The first report, DoD
Inspector General Report No. D-2007-006, “Hurricane Katrina Disaster Recovery Efforts
Related to Army Information Technology Resources,” October 19, 2006, discussed the
effects of Hurricane Katrina on Army information technology resources operated by the
321st Theater Materiel Management Center. The Defense Information Systems Agency
Continuity of Operations and Test Facility (DCTF), located in Slidell, Louisiana,
experienced communications disruptions as a result of Hurricane Katrina. DCTF
provides information technology services that consist of integrated environments for
product evaluation; technology; functional, developmental, performance, and information
assurance testing; operational assessments and demonstrations; and knowledge
management.

Federal policy requires all systems to have a contingency plan to ensure that service
support continues through disruptions. In addition, DoD Directive 3020.26, “Defense
Continuity Program,” September 8, 2004, requires DoD Components to have a
comprehensive and effective continuity program that ensures DoD Component mission-
essential functions continue under all circumstances. The Directive also requires DoD
Components to develop, coordinate, and maintain continuity plans; to update and reissue
plans every 2 years; and to test and exercise continuity plans at least annually, or as
otherwise directed.

Results. The DCTF personnel halted the testing mission to prepare for Hurricane
Katrina. During the hurricane, personnel and the facility lost communications
capabilities and the testing mission was not readily available for client use because no
alternate means of testing was available. As a result, the DCTF testing mission was
halted for 3 weeks following Hurricane Katrina (finding A). Also, the Command and
Control Guard system, located at DCTF, could not continue real-time data processing
following Hurricane Katrina. As a result, U.S. Army Europe, one of the primary DCTF
Command and Control Guard users, lost real-time logistics data for 19 days (finding B).
(See the Findings section of the report for the detailed recommendations). We identified
internal control weaknesses at the DISA DCTF and the Global Combat Support System
Program Management Office over the planning and protection of information technology
resources.
Management Comments and Audit Response. The Commander, Joint Interoperability
Test Command concurred with the recommendation that the Components that are gaining
the DCTF testing mission update their continuity of operations plans so the plans meet
Federal and DoD policy. The Commander, Joint Interoperability Test Command directed
the Joint Interoperability Test Command components that gained the DISA Continuity of
Operations and Test Facility testing mission to review and update their continuity of
operations plans as appropriate. Updating the plans and changes were scheduled to be
completed by December 1, 2006.

The Commander, Joint Interoperability Test Command concurred with the
recommendation that DCTF update its System Security Authorization Agreement to
include the termination of the continuity of operations mission and the continuation of
the testing mission by January 2007. Specifically, the Commander stated that DCTF had
submitted updates to the System Security Authorization Agreement to include the
removal of the Secret Internet Protocol Router Network. Notice was also provided to the
Chief Information Officer and the Strategic Planning and Information Directorate that the
“Unclassified but Sensitive Internet Protocol Router Network” was scheduled to be
turned off and removed on November 30, 2006. In response to the updates, the Defense
Information Systems Agency’s Strategic Planning and Information Directorate, Chief
Information Officer, Information Assurance Branch, stated that no further updates to the
Slidell System Security Authorization Agreement are required. However, the
Information Assurance Branch will prepare amendments to the existing accreditation
letter to reflect the removal of the Secret Internet Protocol Router Network and Cross
Domain Solution and also the Unclassified but Sensitive Internet Protocol Router
Network after its scheduled termination on November 30, 2006.

The Global Combat Support System Program Management Office concurred with the
recommendation to complete the Contingency Management Plan for the Command and
Control Guard system to comply with Federal policy. The Global Combat Support
System Program Management Office stated that the Secret In-Transit Visibility system
has transitioned to the primary Command and Control Guard system administered by
Systems Management Center in Montgomery, Alabama. In addition, the Program
Management Office completed, the Command and Control Guard system suite move
from the DCTF in Slidell, Louisiana, to the Defense Enterprise Computing Center-
Pacific, which will be the continuity of operations site for the Command and Control
Guard system. The Program Management Office also plans to develop a Contingency
Management Plan for the Command and Control Guard system to comply with the Office
of Management and Budget Circular No. A-130, Appendix III, “Security of Federal
Automated Information Resources,” by December 1, 2006.

We request that the Global Combat Support System Program Management Office
provide comments to the final report by December 29, 2006. Specifically, the Program
Management Office should provide the completion date of the Command and Control
Guard suite move to the Defense Enterprise Computing Center-Pacific and the date the
new continuity of operations site will become operational.




                                           ii
Table of Contents

Executive Summary                                                          i

Background                                                                 1

Objective                                                                  3

Review of Internal Controls                                                3


Findings
     A. Defense Information Systems Agency Continuity of Operations and
         Test Facility Continuity of Operations                            4
     B. Command and Control Guard Continuity of Operations Plan           11


Appendixes
     A. Scope and Methodology                                             15
         Prior Coverage                                                   16
     B. Report Distribution                                               17

Management Comments
     Joint Interoperability Test Command                                  19
     Global Combat Support System Program Management Office               21
Background
           This audit is the second in a series of planned audits on the effects of Hurricane
           Katrina on DoD information technology (IT) resources. The first report, DoD
           Inspector General (IG) Report No. D-2007-006, “Hurricane Katrina Disaster
           Recovery Efforts Related to Army Information Technology Resources,”
           October 19, 2006, discussed the effects of Hurricane Katrina on Army IT
           resources operated by the 321st Theatre Materiel Management Center. For this
           audit, we focused on the effects of Hurricane Katrina on IT resources at the
           Defense Information Systems Agency (DISA) Continuity of Operations and Test
           Facility (DCTF) located in Slidell, Louisiana.

           DISA Mission. The designated core missions of DISA are communications, joint
           command and control, defensive information operations, combat support
           computing, and joint interoperability support.

           The majority of the DoD command and control and combat support information
           uses the joint networks provided by DISA, collectively referred to as the Defense
           Information Systems Network. The Defense Information Systems Network
           provides interoperable, secure Internet Protocol data communications services.
           Two specific subsystems on the Defense Information Systems Network include
           the Secret Internet Protocol Router Network (SIPRNET) and the Non-Secure
           Internet Protocol Router Network (NIPRNET).1 The SIPRNET is a system of
           interconnected computer networks used by DoD to transmit classified information
           in a secure environment. The NIPRNET is used to exchange unclassified but
           sensitive information between internal users as well as providing users access to
           the Internet. At the time of Hurricane Katrina, DCTF housed and provided
           manpower support to the Command and Control Guard (C2G) system, a system
           that transfers logistics data between the NIPRNET and the SIPRNET.

           DCTF. The mission at the DCTF has changed several times over the past
           10 years. In 1995, DCTF was designated as a Continuity of Operations (COOP)
           center for the DISA Enterprise Computing Centers. In 1996, developmental test
           and security evaluation services were added to the DCTF mission. In
           October 2004, the COOP mission was terminated and DCTF continued with its
           testing mission. DCTF provides IT services that consist of integrated
           environments for product evaluation; technology; functional, developmental,
           performance, and information assurance testing; operational assessments and
           demonstrations; and knowledge management. On October 1, 2005, DCTF was
           placed under the direction of the Joint Interoperability Test Command (JITC) in
           Fort Huachuca, Arizona. JITC is an independent field operational test and
           evaluation command for DISA, Command, Control, Communications,
           Computers, and Intelligence and identifies interoperability deficiencies through
           testing and evaluation.

           The DCTF has been identified for closure in the DoD Base Closure and
           Realignment Commission list. According to JITC personnel, DISA plans to close
           DCTF in January 2007. During the audit, the DCTF testing mission moved to
1
    NIPRNET is also referred as the Unclassified but Sensitive Internet Protocol Router Network.



                                                      1
     JITC locations at Fort Huachuca, Arizona; Indian Head, Maryland; and Falls
     Church, Virginia.

Criteria
     All DoD organizations are required to comply with the following policies when
     they implement their disaster recovery controls and plans.

     Federal Emergency Management Agency Federal Preparedness Circular 65.
     The Federal Emergency Management Agency (FEMA) Federal Preparedness
     Circular (FPC) 65, “Federal Executive Branch Continuity of Operations
     (COOP),” July 26, 1999, provides guidance on COOP planning procedures and
     elements of a COOP plan. The guidance is applicable to all Federal Executive
     Branch departments, agencies, and independent organizations. According to FPC
     65, a COOP plan should ensure the continuous performance of an agency’s
     essential functions/operations during an emergency, ensure the protection of
     essential facilities and equipments, reduce or mitigate disruptions to operations,
     reduce loss of life and minimize damage, achieve a timely and orderly recovery
     from an emergency, and resume full service to customers.

     Office of Management and Budget Circular No. A-130. Office of
     Management and Budget (OMB) Circular No. A-130, Appendix III, “Security of
     Federal Automated Information Resources,” November 28, 2000, (Appendix III)
     requires systems to have a contingency plan to ensure service support continues
     through disruptions. In addition, Appendix III provides security requirements for
     major applications, which require special security measures due to the risk and
     magnitude of harm resulting from the loss, misuse, or unauthorized access to the
     information. Appendix III requires that major applications have a periodically
     tested contingency plan that will ensure the agency function supported by the
     application will continue if automated support fails. It also states that agency
     plans should ensure that there is an ability to recover and provide service
     sufficient to meet the system users’ minimal needs. Further, Appendix III states
     that manual procedures are generally not a viable back-up option.

     DoD Directive 3020.26. DoD Directive 3020.26, “Defense Continuity Program
     (DCP),” September 8, 2004, requires a comprehensive and effective continuity
     program that ensures DoD Component mission-essential functions continue under
     all circumstances and threats. Also, the performance of mission-essential
     functions in a continuity threat or event shall be the basis for continuity planning,
     preparation, and execution. This directive orders the heads of the DoD
     Components to develop, coordinate, and maintain continuity plans and to update
     and reissue plans every 2 years. Finally, the heads of the DoD Components
     should test and exercise continuity plans at least annually, or otherwise as
     directed.

     DoD Instruction 5200.40. DoD Instruction 5200.40, “DoD Information
     Technology Security Certification and Accreditation Process (DITSCAP),”
     December 30, 1997, provides a single approach to activities leading to
     certification and accreditation within DoD. The objective of the DITSCAP is to
     establish a DoD standard certification and accreditation approach, which protects


                                           2
     and secures the entities comprising the Defense Information Infrastructure. One
     of the basic documents produced under the DITSCAP is the System Security
     Authorization Agreement (SSAA). The SSAA describes the system missions,
     target environment, target architecture, security requirements, and applicable data
     access policies. It also describes the applicable set of planning and certification
     actions, resources, and documentation required supporting certification and
     accreditation. As such, it is a living document that represents the formal
     agreement among the Designated Approving Authority, the Certification
     Authority, the user representative, and the program manager.


Objective
     The overall audit objective was to determine the effects of Hurricane Katrina on
     DoD IT resources in affected areas. Specifically, we reviewed IT resources
     managed by DCTF that were affected by Hurricane Katrina. See Appendix A for
     a discussion of the scope and methodology and prior audit coverage related to the
     objective.


Review of Internal Controls
     We identified internal control weaknesses for DCTF as defined by DoD
     Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
     January 4, 2006. DoD 5010.40 states that internal controls are the organization,
     policies, and procedures that help program and financial managers to achieve
     results and safeguard the integrity of their programs. We identified internal
     control weaknesses at the DISA DCTF and Global Combat Support System
     Program Management Office. DCTF management did not have procedures in
     place to ensure that the Severe Weather Plan (SWP) and SSAA complied with
     Federal and DoD policy. When the JITC components that are gaining the DCTF
     testing mission update their continuity of operations plans to meet the
     requirements identified in Federal and DoD policy, internal controls over the
     testing mission should improve. The Global Combat Support System, Program
     Management Office did not have a COOP plan to adequately protect and
     safeguard the C2G system at the DISA DCTF. When the Global Combat Support
     System Program Manager completes the Contingency Management Plan for the
     C2G it should improve internal controls over the C2G.




                                          3
A. Defense Information Systems Agency
   Continuity of Operations and Test Facility
   Continuity of Operations
           The DCTF personnel halted the testing mission to prepare for Hurricane
           Katrina. During the hurricane, personnel and the facility lost
           communications capabilities and the testing mission was not readily
           available for client use because no alternate means of testing was
           available. This occurred because DCTF and DISA COOP officials did not
           validate and test that the SWP and the SSAA complied with Federal and
           DoD policy. For example, neither the SWP nor the SSAA included
           specific procedures to reduce disruptions to the DCTF testing mission. As
           a result, DCTF was not able to provide the testing mission for 3 weeks.


Testing Mission
    The DCTF personnel halted the testing mission to prepare for Hurricane Katrina.
    The following provides the approximate timeline of events performed by DCTF
    and JITC personnel.

           •   August 26, 2005: DCTF officials implemented the SWP.

           •   August 27, 2005: DCTF officials released non-essential personnel.

           •   August 28, 2005: DCTF officials recalled emergency essential
               personnel and took in Slidell first responders, equipment, and DISA
               families.

           •   August 29, 2005: Hurricane Katrina made landfall, causing
               communications outages; DCTF employees could not communicate
               with DISA Headquarters. The facility sustained minor damage and a
               generator provided portions of the facility with power.

           •   September 5, 2005: JITC representatives provided DCTF with a
               communications package, although not part of either the SWP or
               SSAA. The communications package included satellite phones, access
               to the NIPRNET and SIPRNET, and video teleconferencing.

           •   September 8, 2005: DCTF officials accounted for all employees.

           •   September 19, 2005: DCTF officials determined enough DCTF
               personnel returned to resume the testing mission.




                                        4
Disaster Planning
     The testing mission was negatively impacted because the DCTF SWP and SSAA
     did not comply with Federal and DoD policy. DCTF officials were responsible
     for updating both the SWP and the SSAA.

     COOP Criteria. Federal and DoD policies state that every comprehensive
     COOP plan should have the following key criteria elements that:

            •   provide for the continuous performance of an agency’s essential
                functions/operations during an emergency;

            •   reduce or mitigate disruptions to operations;

            •   ensure the protection of essential facilities and equipments;

            •   develop, coordinate, and maintain continuity plans, and update and
                reissue plans every 2 years;

            •   address communication support to continuity operations; and

            •   identify relocation sites or platforms for Component use during
                continuity threats or events.

     DCTF COOP. DCTF Instruction 200-50-5, “Severe Weather Plan [SWP],” May
     19, 2005, and the DCTF SSAA did not comply with Federal and DoD policy to
     ensure continuity of operations. The DCTF officials considered the DCTF SWP
     to be their COOP for responding to severe weather conditions. The SWP outlined
     steps to be taken by DCTF before, during, and after severe weather conditions.

     The DCTF SSAA documented the DCTF certification and accreditation process
     to obtain site re-accreditation. The DCTF SSAA contains security documentation
     to include the DCTF Disaster Recovery Plan (DRP), September 2003, and the
     Vulnerability Assessment and Risk Analysis, April 13, 2003.

     In the following table we evaluated the SWP and DRP to determine whether the
     plans outline procedures regarding these six key criteria elements of a COOP plan
     as required by FPC 65 and DoD 3020.26. The following table uses green, yellow,
     and red to indicate the effectiveness of the plans in these criteria elements.




                                          5
                                     DCTF Continuity of Operations Plans
                                     and Analysis of Key Criteria Elements
                                                                                  System Security
                                                                                   Authorization
              Key Criteria Elements             Severe Weather Plan              Agreement (Disaster
                                                                                   Recovery Plan)
             Mission-Essential                             Red                             Red
             Functions
             Reduce or Mitigate
             Disruption to                                 Red                           Yellow
             Operations
             Protection of Essential
             Facilities and                             Yellow                             Red
             Equipment
             Develop, Coordinate,
             and Maintain                                  Green                         Yellow
             Continuity Plans
             Communication                                 Red                           Yellow
             Support
             Relocation of Sites or                        Red                            Green
             Platforms
             Green=Plan includes information that does not need to be updated.
             Yellow=Plan includes outdated or incomplete information.
             Red=Plan does not include information.



            Mission-Essential Functions. Mission-essential functions are those tasks that
            must be performed under all circumstances to achieve missions or responsibilities
            in a continuity threat or event. Failure to perform or sustain these functions
            would significantly impact the ability of DoD to provide vital services, or
            exercise authority, direction, and control. According to the DCTF SSAA, the
            DCTF fills extremely critical roles and has time-sensitive missions that cannot be
            easily performed by other organizations. The DCTF SSAA also maintains that
            the criticality of the DCTF COOP and test missions are very high. Specifically,
            the DCTF SSAA states that its mission and functions provide flexible
            environments to perform system integration, security, and stress testing of
            command and control software systems.

            Clients relied on DCTF to continue its testing mission for their programs. For
            example, the eBusiness2 service level agreement deliverables included planning
2
    The eBusiness Program Portfolio is composed of eight programs that facilitate business transactions
     within the Federal Government. There are two types of programs, Federal-wide and DoD.


                                                       6
for, conducting, and reporting against the performance testing of systems. As a
result of the testing mission downtime, the eBusiness Program Portfolio Program
Manager decided to relocate the system testing due to his concern that the
downtime would hamper the ability of the program to meet an important testing
milestone.

Neither the SWP nor the DRP were updated after October 2004 to reflect the
change in the DCTF mission. While the SWP stated that DCTF will “maintain
comprehensive and aggressive plans to protect its mission capability,” the SWP
did not outline the DCTF mission-essential functions.

The DRP provided continuity procedures for the DCTF COOP mission, which
was terminated in October 2004, and for the DCTF test mission; however, the
DRP did not define the mission-essential functions for either mission.

Reduce or Mitigate Disruption to Operations. Disruption to operations
procedures should be addressed in a COOP plan to achieve a timely and orderly
recovery from an emergency and resume full service to customers. While the
DRP did include critical recovery time frames for testing, COOP,
communications, and payroll, neither the SWP nor the DRP provided specific
procedures to reduce disruptions to the DCTF testing mission.

Protection of Essential Facilities and Equipment. Federal and DoD policy
require COOP plans to outline procedures to ensure the protection of essential
facilities and equipment; neither the SWP nor the DRP fully satisfied the policy
requirements for this element. The SWP provided a list of actions to be taken
before, during, and after the threat of severe weather to ensure the protection of
the facility; however, the plan did not address the protection of the test
equipment. In addition, the DRP did not address either the protection of the
facility or the protection of test equipment.

Develop, Coordinate, and Maintain Continuity Plans. According to DoD
Directive 3020.26, COOP plans should be developed, coordinated, and
maintained by DoD Component Heads and updated and reissued every 2 years or
as changes occur. The SWP is updated and reissued each year by the Chief of
DCTF. DCTF officials updated the SWP on April 12, 2006. However, DCTF
officials did not update the DRP within the 2-year time frame. During the time
DCTF was not operational, following Hurricane Katrina, the DRP became
outdated.

DCTF officials were not prepared for severe weather conditions of Hurricane
Katrina’s magnitude, which was reflected in the development of the SSAA. For
example, Appendix G of the SSAA, “Vulnerability Assessment and Risk
Analysis,” April 13, 2003, did not include the threat of a disruption to
communications services due to severe emergency conditions such as hurricanes
or tornadoes.

Communication Support. Available and redundant critical communications
should be addressed in the COOP plan to support connectivity to internal
organizations, other agencies, critical customers, and the public. Although DISA
had redundant communications, the DCTF SWP did not address this key element.


                                     7
    In addition, the DRP did not contain procedures for available voice and data
    communications in the event the commercial communications infrastructure was
    damaged in the surrounding area.

    Relocation of Sites or Platforms. Alternate operating facilities or platforms
    should be designated for use during continuity threats or events. In addition,
    personnel should be prepared for the unannounced relocation of essential
    functions to these facilities. The SWP did not identify a disaster recovery
    contingency site for the DCTF testing mission. The DRP identified the disaster
    recovery contingency site for the testing mission as DISA headquarters but stated
    that if DISA headquarters test assets were not available, the testing function
    would be deferred. The testing mission was not transferred to DISA headquarters
    following Hurricane Katrina. As a result, the eBusiness Program Portfolio
    Program Manager decided to relocate the system testing due to his concern that
    the downtime would hamper the ability of the program to meet an important
    testing milestone.

    Both the SWP and DRP did include names and titles of essential employees who
    were to stay at the facility in case of an emergency. In addition, the SWP stated
    that employees are issued cards with key points of contact and phone numbers
    that may be called before and after severe weather conditions or after a disaster.
    However, a specific designated area for non-emergency essential employees to
    report to during an emergency was not included in either the SWP or DRP. As a
    result, not all DCTF employees and their families were accounted for until
    approximately 10 days after Hurricane Katrina.


Planning Oversight
    The testing mission was negatively impacted because DISA COOP officials did
    not provide sufficient oversight to ensure the DCTF continuity of operations and
    security documents complied with Federal and DoD policy.
    SWP. Personnel at the DISA Concepts and COOP Branch, under the DISA
    Plans, Concepts, and Integration Division, agreed that the SWP did not meet
    Federal or DoD COOP policy. According to personnel in the DISA Concepts and
    COOP Branch, they asked DCTF for COOP information related to mission-
    essential functions in 2002. However, the DISA COOP Branch concentrated its
    request for mission-essential function COOP data to the National Capital Region,
    and did not require DISA field sites to respond. DCTF did not respond and there
    was no follow-up until our audit. During our audit, the DISA COOP Branch sent
    another data call requesting information regarding mission-essential functions to
    all field sites. JITC personnel stated that DISA Test and Evaluations Directorate
    determined DCTF did not have any mission-essential functions; therefore, DCTF
    did not provide information to the DISA COOP Branch.

    SSAA. The DCTF Information Assurance Officer did not provide sufficient
    oversight to ensure the SSAA complied with DoD policy. DoD
    Instruction 5200.40 requires the SSAA to be updated whenever necessary to
    reflect the current operating system mission. According to the Defense Switched


                                         8
    Network Site SSAA Template, March 1, 2004, the Information Assurance Officer
    who is appointed at the organizational level will be responsible for developing the
    certification and accreditation documentation for his/her organization. According
    to the DCTF SSAA in effect at the time of Hurricane Katrina, the criticality of the
    affected COOP mission was very high; however, DCTF had not been responsible
    for the COOP mission since October 2004. The Information Assurance Officer
    had not revised the DCTF SSAA to reflect the mission change to the testing
    mission.

    On April 24, 2006, the DISA Chief Information Officer granted an Interim
    Authority to Operate dated to expire in January 2007. The Interim Authority to
    Operate requires DCTF to continue to revise the SSAA. Therefore, DCTF should
    update the SSAA in accordance with the Interim Authority to Operate to include
    all changes that have occurred since the October 23, 2000, site accreditation.


Management Actions
    DCTF officials updated the SWP on April 12, 2006. The April 2006 version
    included the addition of the Emergency Planning Information Sheet enclosure,
    which included a form that DCTF employees must complete and return to their
    Branch Chief. The new form should allow for better personnel accountability in
    the event of a disaster. In addition, after Hurricane Katrina, DCTF developed a
    lessons learned document on how the facility could better handle a hurricane of
    this magnitude. However, the updated SWP was not revised to include the
    contingency actions lessons learned based on the magnitude of Hurricane Katrina.

    Following Hurricane Katrina, DISA officials initiated a DISA-wide review and
    assessment of mission-essential functions to help organizations identify tools
    needed to accomplish their mission.


Recommendations and Management Comments
    A.1. We recommend that the Commander, Joint Interoperability Test
    Command require Joint Interoperability Test Command Components that
    are gaining the Defense Continuity of Operations and Test Facility testing
    mission to update their continuity of operations plans so the plans meet
    Federal and DoD Continuity of Operations policy and for these Components
    to review their Continuity of Operations plans on an annual basis and update
    whenever major changes occur.

    Management Comments. The Commander, Joint Interoperability Test
    Command concurred. The Commander, Joint Interoperability Test Command
    directed the Joint Interoperability Test Command components that gained the
    DISA Continuity of Operations and Test Facility testing mission to review and
    update their continuity of operations plans as appropriate. Updates to the plans
    and changes were schedule to be completed by December 1, 2006.



                                         9
A.2. We recommend that the Commander, Joint Interoperability Test
Command require the Defense Information Systems Agency Continuity of
Operations and Test Facility to update its System Security Authorization
Agreement to include the termination of the continuity of operations mission
and the continuation of the testing mission by January 2007.

Management Comments. The Commander, Joint Interoperability Test
Command concurred. Specifically, the Commander stated that DCTF had
submitted updates to the System Security Authorization Agreement to include the
removal of the Secret Internet Protocol Router Network. Notice was also
provided to the Chief Information Officer and the Strategic Planning and
Information Directorate that the “Unclassified but Sensitive Internet Protocol
Router Network” was scheduled to be turned off and removed on November 30,
2006. In response to the updates the Defense Information Systems Agency’s
Strategic Planning and Information Directorate, Chief Information Officer,
Information Assurance Branch, stated that no further updates to the Slidell
System Security Authorization Agreement are required. However, the
Information Assurance Branch will prepare amendments to the existing
accreditation letter (or a new decision) to reflect the removal of the Secret Internet
Protocol Router Network and Cross Domain Solution and also the Unclassified
but Sensitive Internet Protocol Router Network after it is terminated on
November 30, 2006.




                                     10
B. Command and Control Guard Continuity of
   Operations Plan
            The Command and Control Guard (C2G) system, located at DCTF, could
            not continue real-time data processing following Hurricane Katrina. This
            occurred because the DISA Global Combat Support System (GCSS)
            Program Management Office, owner of the C2G, did not have a formal
            COOP plan for the C2G system. As a result, U.S. Army Europe, one of
            the primary DCTF C2G users, lost real-time Radio Frequency-In-Transit
            Visibility system logistics data for 19 days.


Lost Connectivity
     The C2G system, the only operational system located at DCTF, could not
     continue real-time data processing following Hurricane Katrina. The C2G system
     lost connectivity because the commercial communications infrastructure in
     Slidell, Louisiana, was severely damaged. The C2G system is used to
     automatically transfer logistics information from the NIPRNET to the SIPRNET
     to ensure the SIPRNET is updated on a real-time basis. According to the DISA
     Requirements Memorandum, April 20, 2005, “Cross Domain Connection to
     support Global Combat Support Systems (GCSS) Command and Control Guard
     (C2G) Operations in SMC Montgomery,” (the DISA Requirements
     Memorandum) the C2G supports warfighter access to critical logistics data. At
     the time of Hurricane Katrina, the primary users of the DCTF C2G were U.S.
     Army Europe and the Defense Logistics Agency.

     Prior to Hurricane Katrina, DCTF operated 8 hours a day, 5 days a week, which
     was insufficient for the C2G user community. As a result, DCTF officials began
     transferring the primary users of the C2G system to the System Management
     Center in Montgomery, Alabama, which operates 24 hours a day, 7 days a week.
     The Defense Logistics Agency users were successfully transferred to the System
     Management Center approximately one day after Hurricane Katrina; however, the
     System Management Center had not been configured to accommodate the
     U.S. Army Europe users at the time of the hurricane. After the Defense Logistics
     Agency users were transferred to the System Management Center, DCTF became
     the back-up site for the C2G that supports the Defense Logistics Agency.
     However, DCTF remained the primary site for the U.S. Army Europe users.


COOP Plan
     The DISA GCSS Program Management Office, owner of the C2G, had not
     completed a COOP plan for the C2G system. Federal policy requires systems to
     have a contingency plan to ensure service support continues through disruptions.
     GCSS personnel provided a draft C2G Contingency Management Plan. This plan
     was not implemented during Hurricane Katrina and still has not been finalized
     and approved.


                                        11
Federal System Security Requirements. OMB Circular No. A-130,
Appendix III requires systems to have a contingency plan to ensure service
support continues through disruptions. Based on the DISA Requirements
Memorandum, the logistics information transferred through the C2G is critical
and supports the warfighter.

Appendix III requires that major applications have a periodically tested
contingency plan that will ensure the agency function supported by the
application will continue if automated support fails. It also states that agency
plans should ensure that there is an ability to recover and provide service
sufficient to meet the system users’ minimal needs. Further, Appendix III states
that manual procedures are generally not a viable back-up option.

DISA GCSS did not have procedures to ensure the C2G system maintained
connectivity in the event the primary site, DCTF, was unavailable. Because the
C2G did not have an accessible contingency site, a contractor working for
U.S. Army Europe manually transferred the logistics data from the NIPRNET to
the SIPRNET approximately two times per day during the 19 days of the system
downtime. The DISA Requirements Memorandum states that the logistics
information transferred from NIPRNET to SIPRNET is time-sensitive and
manually transferring the data from one source to another is not acceptable
because the data would not be updated on a real-time basis. Therefore, based on
OMB Circular No. A-130 and the DISA Requirements Memorandum, the manual
transfer did not effectively support the C2G mission and the downtime impacted
the quality of the logistics data because U.S. Army Europe users were not
receiving information on a real-time basis. The GCSS officials should develop a
COOP plan to ensure the C2G maintains network connectivity through a disaster
situation.

Draft Contingency Plan. An official from the GCSS Program Management
Office developed a C2G Contingency Management Plan that provided the overall
strategy for implementing and operating the C2G. The plan was not completed or
signed by a DISA official and therefore, was not implemented during Hurricane
Katrina. The Contingency Management Plan was incomplete in the following
areas:

       •   specific requirements and locations for continuous operations had not
           been determined;

       •   maximum lost data intervals, used to determine the frequency of data
           backup, was not provided;

       •   maximum downtime, used to determine contingency management
           strategies for preventing service-level interruptions and for restoring
           limited production, was not provided; and

       •   planned actions in the event the primary C2G site, the System
           Management Center in Montgomery, Alabama, and the back-up C2G
           site in Slidell, Louisiana, were unavailable.




                                    12
Impact of the C2G Downtime
    As a result of the C2G downtime, U.S. Army Europe lost real-time logistics data
    to support the warfighter for 19 days. Specifically, the system used by U.S. Army
    Europe, the Radio Frequency-In-Transit Visibility system, to obtain real-time
    logistics data was disrupted due to the C2G downtime. The Radio Frequency-In-
    Transit Visibility system supports warfighter operations and uses the logistics
    information transferred by the C2G system. Therefore, the lack of a contingency
    plan resulted in the warfighter not receiving real-time logistics information from
    the Radio Frequency-In-Transit Visibility system. Unless DISA GCSS completes
    the contingency plan for the C2G and ensures the plan includes the elements
    required by OMB Circular A-130, Appendix III, the probability that the C2G will
    be unable to effectively support the warfighter during another communication
    disruption is significant.


Management Planning
    In 2006, DISA successfully transferred the U.S. Army Europe C2G users to the
    System Management Center in Montgomery, Alabama. Consequently, DCTF
    also became the back-up site for the U.S. Army Europe C2G users. Due to DCTF
    being identified on the 2005 Base Realignment and Closure list, the personnel
    administering the back-up C2G system at DCTF accepted other employment in
    July 2006. Therefore, DCTF lacked personnel available to administer the
    contingency function of the C2G system. According to DISA personnel, DISA
    configured the Defense Enterprise Computing Center at the DISA Pacific Field
    Command at Pearl Harbor, Hawaii, to be the back-up site for both primary users
    of the C2G system as of August 7, 2006.


Recommendations, Management Comments, and Audit
  Response
    We recommend the Program Manager, Defense Information Systems Agency
    Global Combat Support System complete the Contingency Management
    Plan for the Command and Control Guard system to comply with the Office
    of Management and Budget Circular No. A-130, Appendix III, “Security of
    Federal Automated Information Resources,” November 28, 2000.

    Management Comments. The Global Combat Support System Program
    Management Office concurred, stating that the Secret In-Transit Visibility system
    has transitioned to the primary C2G administered by the Systems Management
    Center in Montgomery, Alabama. In addition, the Program Management Office
    completed the C2G suite move from the DCTF in Slidell, Louisiana, to the
    Defense Enterprise Computing Center-Pacific, which will be the COOP site for
    the C2G. The Program Management Office also planned to develop a
    Contingency Management Plan for the Command and Control Guard system to
    comply with the Office of Management and Budget Circular No. A-130,


                                        13
Appendix III, “Security of Federal Automated Information Resources by
December 1, 2006.

Audit Response. Although the Global Combat Support System Program
Management Office concurred with the recommendation, the comments were
partially responsive in that a completion date that the Command and Control
Guard suite was moved to the Defense Enterprise Computing Center-Pacific and a
date when the new continuity of operations site will become operational was not
provided. Therefore, we request that the Global Combat Support System Program
Management Office provide these completion dates and planned actions to the
final report by December 29, 2006.




                                  14
Appendix A. Scope and Methodology
   We performed this audit from October 2005 through September 2006 in
   accordance with generally accepted government auditing standards. This audit is
   the second in a planned series of audits that will be conducted to determine the
   effects of Hurricane Katrina on DoD IT resources. The scope of this audit was
   limited to determining the effects of Hurricane Katrina on the Defense
   Information Systems Agency Continuity of Operations and Test Facility located
   in Slidell, Louisiana.

   We conducted field work at DISA offices located in the National Capital Region
   and at the DCTF in Slidell, Louisiana; and the Program Executive Office for
   Enterprise Information Systems in Fort Belvoir, Virginia. Additionally, we
   reviewed and analyzed continuity of operation procedures and disaster plans to
   determine what recovery actions were performed before, during, and after
   Hurricane Katrina, and the effect Hurricane Katrina had on DCTF IT resources.
   Additionally, we talked to the Army Program Executive Office for Enterprise
   Information Systems and the Defense Logistics Agency Program Management
   Office for Asset Visibility to discuss the effect of the downtime of the C2G
   system and the effect of the downtime on U.S. Army Europe and the Defense
   Logistics Agency.

   We obtained information for the audit through meetings, e-mails, and briefings
   with the personnel stated above. We reviewed and analyzed laws, policies,
   guidance, and documentation dated from December 30, 1997, through April 12,
   2006. Specifically, we reviewed and compared:

          •   FEMA FPC 65, “Federal Executive Branch Continuity of Operations
              (COOP),” July 26, 1999;

          •   OMB Circular No. A-130, Appendix III, “Security of Federal
              Automated Information Resources,” November 28, 2000;

          •   DoD Directive 3020.26, “Defense Continuity Program (DCP),”
              September 8, 2004;

          •   DoD Instruction 5200.40, “DoD Information Technology Security
              Certification and Accreditation Process (DITSCAP),”
              December 30, 1997;

          •   DCTF Severe Weather Plan, May 19, 2005; and

          •   DCTF System Security Authorization Agreement, undated, which
              included:

                 o DCTF Vulnerability Assessment and Risk Analysis, April 13,
                   2003;




                                      15
                  o “DISA Continuity of Operations and Test Facility (DCTF)
                    Slidell, Louisiana, Disaster Recovery Plan (DRP),”
                    September 2003; and

           •   DCTF Severe Weather Plan, April 12, 2006.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office (GAO) has identified several high-risk areas in DoD. This
    report provides coverage of the Protecting the Federal Government’s Information-
    Sharing Mechanisms and the Nation’s Critical Infrastructures high-risk areas.


Prior Coverage
    During the last 5 years, GAO has issued one report and the DoD IG issued one
    report on continuity planning and emergency recovery efforts and the effects of
    Hurricane Katrina. Unrestricted GAO reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports.


GAO
    GAO Report GAO-04-160, “Continuity of Operations: Improved Planning
    Needed to Ensure Delivery of Essential Government Services,” February 27,
    2004


DoD IG
    DoD IG Report No. D-2007-006, “Hurricane Katrina Disaster Recovery Efforts
    Related to Army Information Technology Resources,”
    October 19, 2006




                                       16
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Under Secretary of Defense for Personal and Readiness
Assistant Secretary of Defense for Network and Information Integration/DoD Chief
   Information Officer

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Program Executive Office Enterprise Information Systems

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)

Combatant Commands
Commander, U.S. Northern Command
Commander, U.S. Southern Command
Commander, U.S. Joint Forces Command
  Inspector General, U.S. Joint Forces Command
Commander, U.S. Pacific Command
Commander, U.S. European Command
Commander, U.S. Central Command
Commander, U.S. Transportation Command
Commander, U.S. Special Operations Command
Commander, U.S. Strategic Command




                                          17
Other Defense Organizations
Director, Defense Information Systems Agency
   Director, Test and Evaluation Directorate
      Chief, Defense Information Systems Agency Continuity of Operations and Test
         Facility
Director, Defense Logistics Agency
Director, National Guard Bureau
Directors of the DoD Field Activities

Non-Defense Federal Organization
Office of Management and Budget
Office of Inspector General, Department of Homeland Security

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                         18
Joint Interoperability Test Command
Comments




                      19
20
Global Combat Support System Program
Management Office Comments




                    21
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Bruce A. Burton
Jacqueline L. Wicecarver
Therese M. Kince-Campbell
Kelly B. Lesly
Susan R. Ryan
Richard A. Pinnock
Susan H. Bachle
Pedro J. Calderón
Adrianne R. Voshell
Meredith H. Johnson
